        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Global Threat Reduction
Initiative's Molybdenum-99 Program




OAS-L-12-07                          July 2012
                                 Department of Energy
                                      Washington, DC 20585

                                          July 20, 2012


MEMORANDUM FOR THE ASSISTANT DEPUTY ADMINISTRATOR FOR GLOBAL
               THREAT REDUCTION, NATIONAL NUCLEAR SECURITY
               ADMINISTRATION



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Global Threat Reduction
                         Initiative's Molybdenum-99 Program"

BACKGROUND

Molybdenum-99 (Mo-99) is used in the production of technetium-99m (Tc-99m), the most
commonly used medical radioisotope in the world. The United States accounts for
approximately half of the global demand for Mo-99 at approximately 6,000 units per week.
Because Mo-99's short half-life of 66 hours prevents it from being stockpiled, consistent
production is important to meet demand. Because the U.S. lacks a domestic production
capability, its demand is met by other countries, whose processes have recently proven
unreliable. In addition, the foreign producers utilize highly enriched uranium (HEU), a practice
contrary to the National Nuclear Security Administration's (NNSA) Nuclear Security Goal of
minimizing the use of HEU in civilian applications.

As a part of the Global Threat Reduction Initiative's (GTRI) Mo-99 Program, in Fiscal Years
2009 and 2010, NNSA entered into cooperative agreements (CA) with four commercial entities
to accelerate the domestic production of Mo-99 without the use of HEU. Each CA has a
potential value of $25 million, and as of February 2012, NNSA had reimbursed the four CA
partners a total of approximately $6.7 million. GTRI's programmatic approach is to accelerate
existing commercial projects to ensure that they can meet at least 100 percent of the U.S. demand
of Mo-99 produced without HEU by the end of 2014. To maintain a steady supply without
government subsidies, partners must utilize a full cost recovery economic model that permits the
recovery of the full cost of production. Given the goal of minimizing the civilian use of HEU,
along with the high domestic demand for Tc-99m, we initiated this audit to determine whether
NNSA's GTRI Mo-99 program was on track to develop a reliable domestic production capability
for Mo-99 by the end of 2014.

CONCLUSIONS AND OBSERVATIONS

Progress has been made in developing a reliable domestic production capability for Mo-99. For
example, our review disclosed that as of January 2012, the CA partners had met established
milestones. Although one of the partners has indefinitely suspended operations and a second is
not expected to meet the 2014 deadline, NNSA officials told us that program objectives can still
be achieved by the remaining partners. Further, our tests did not reveal any material internal
control weaknesses in selected areas of CA administration. Finally, while there are significant
challenges to establishing a reliable domestic production capability for Mo-99, NNSA is aware
of the challenges and is considering how best to address them.

                                     Agreement Milestones

According to NNSA officials and Mo-99 program documentation, while Mo-99 production
capability establishment efforts are still in the early stages as of January 2012, NNSA's four CA
partners had achieved all of their milestones to date. In particular, initial activities including
licensing, design and fabrication were successfully accomplished. However, we noted that not
all of the CA partners will meet the remaining schedule. Specifically, in February 2012, one of
the partners indefinitely suspended program operations after determining that its process was not
financially competitive. Also, a second partner may not meet the production capacity goal until
2018 — more than 3 years after NNSA's programmatic goal of 2014, according to NNSA
officials. In spite of this, NNSA officials told us that they are confident the other two CA
partners will still achieve the production objectives. In fact, according to NNSA's program
scheduling documentation, the partners are on track to meet the remaining milestones, including
facility construction, equipment installation and full-scale production.

                                        Internal Controls

We identified no material internal control weaknesses based on our limited testing of CA
administration activities regarding National Environmental Policy Act (NEPA) requirements,
reimbursement reviews and annual audits. We also noted that Federal oversight officials
recognized potential issues and addressed them appropriately.

For example, CA partners have begun evaluations to determine the Mo-99 processes' effect on
the environment. Specifically, in accordance with NEPA regulations, each of the CA partners
submitted, or is preparing to submit, the documentation necessary for NEPA review. According
to the CA terms, until such documentation is completed, cost reimbursement for the associated
activities is prohibited. As such, we noted that the Federal Project Officer correctly identified
and did not reimburse one of the CA partners when it erroneously submitted a reimbursement
request for NEPA-related activities before the required documentation was complete.

In addition, we reviewed approximately $3.3 million of the approximately $6.7 million requested
for reimbursement by the CA partners as of February 2012. The CA reimbursement requests we
tested were supported with documentation such as invoices and receipts, and complied with
applicable provisions of the Energy Policy Act of 2005 (Act). Specifically, in accordance with
the Act, NNSA reimburses up to 50 percent of total allowable costs on CAs, therefore
reimbursement requests must specify the total Federal share and the non-Federal share for each
cost claimed. Also, supporting documentation must be attached to each request. Each request
that we reviewed appropriately stated the Federal and non-Federal shares and included the
required documentation. In some cases, CA partners requested reimbursement for unallowable



                                                2
costs or excluded activities as defined by the respective agreements. However, in each case the
Federal Project Officer appropriately identified and denied these requests.
Finally, we determined that annual audits were conducted in accordance with the Code of
Federal Regulations (CFR). Specifically, according to the Financial Assistance Rules found in
10 CFR 600, recipients of Federal awards must be audited by an independent auditor for each
year in which they spend $500,000 or more of award funding. In 2011, one CA partner's
spending exceeded the limit, as did a second partner's in 2010 and 2011. In each case, an
independent audit was conducted as required, with no significant findings identified.

                                       Program Challenges

NNSA's CA partners have made progress toward developing a reliable domestic production
capability for Mo-99, but challenges remain. According to industry experts, the most significant
challenge is achievement of a full cost recovery economic model. To develop a domestic Mo-99
production capability that is sustainable for the long term, the CA partners must not rely on
continued government financial support.

In addition, NNSA faces a number of secondary challenges. For example, the CA partner's
success may be undermined by Mo-99 producers that receive subsidies from other countries.
Further, the transition from HEU-based to non-HEU-based Mo-99 requires cooperation from
government, industry and the medical community that may be difficult to obtain.

To address these challenges, NNSA, along with other Federal agencies, is considering incentives
for the producers of non-HEU Mo-99. In addition, according to NNSA, the U.S. recently took
part in an international four-party joint-statement to enhance cooperation for minimizing the use
of HEU in Mo-99 production.

SUGGESTED ACTIONS

Development of a non-HEU-based Mo-99 production capability supports NNSA's mission to
reduce nuclear materials located at civilian sites worldwide. As such, the program's success
plays a vital role in achievement of NNSA's nonproliferation goal. In addition, this capability is
needed so that the critical medical radioisotope Tc-99m will be available for the U.S. medical
community. Therefore, we suggest that the Mo-99 Program Manager continue to:

     1. Monitor each of the CA partners to ensure compliance with the respective CAs; and,

     2. Develop viable mitigation strategies for the challenges noted in this report.

Because no recommendations are being made in this report, a formal response is not required.
We appreciated the cooperation of your staff during the audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
                                                 3
                                                                                       Attachment


                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to determine whether the National Nuclear Security
Administration's (NNSA) Global Threat Reduction Initiative (GTRI) Molybdenum-99 (Mo-99)
Program was on track to develop a reliable domestic production capability for Mo-99.

SCOPE

The audit was performed between October 2011 and June 2012, at NNSA Headquarters in
Washington, DC; Argonne National Laboratory in Argonne, IL; Oak Ridge National Laboratory
in Oak Ridge, TN; and, NNSA's Albuquerque Complex in Albuquerque, NM. We also attended
the Mo-99 Topical Meeting in Santa Fe, NM, and visited one of the Cooperative Agreement
(CA) partners, located in Madison, WI.

METHODOLOGY

To accomplish the audit objective, we:

     •   Reviewed criteria regarding the management of CAs;

     •   Judgmentally selected a sample of CA reimbursement requests to review for
         adequate support and cost allowability;

     •   Evaluated the progress of each CA partner, including the status of National
         Environmental Policy Act submissions;

     •   Assessed internal and external risks to the production of Mo-99 and mitigation
         plans;

     •   Examined the CA deliverables being tracked by the Federal Program Managers;
         and,

     •   Reviewed prior audit reports on the CA partners and finding resolution, if
         applicable.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. Accordingly, the audit included tests of
controls and compliance with laws and regulations to the extent necessary to satisfy our
objective. In particular, we assessed NNSA's implementation of the GPRA Modernization Act of
2010 and concluded that it had established performance measures specifically for the

                                               4
                                                                          Attachment (continued)


management of cooperative agreements for the domestic production capability of Mo-99.
Measures were also established in the overall GTRI program area. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit. We did not rely on computer-processed data to accomplish our
audit objective.

NNSA waived an exit conference.




                                                5
                                                                    IG Report No. OAS-L-12-07

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
